<html>
<title> - AGENCY COMPLIANCE WITH THE FEDERAL INFORMATION TECHNOLOGY ACQUISITION REFORM ACT (FITARA)</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



                   AGENCY COMPLIANCE WITH THE FEDERAL
                   INFORMATION TECHNOLOGY ACQUISITION
                          REFORM ACT (FITARA)

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2021

                               __________

                           Serial No. 117-14

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-381 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                          Taylor Jones, Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Jody B. Hice, Georgia Ranking 
    Columbia                             Minority Member
Danny K. Davis, Illinois             Fred Keller, Pennsylvania
John P. Sarbanes, Maryland           Andrew Clyde, Georgia
Brenda L. Lawrence, Michigan         Andy Biggs, Arizona
Stephen F. Lynch, Massachsetts       Nancy Mace, South Carolina
Jamie Raskin, Maryland               Jake LaTurner, Kansas
Ro Khanna, California                Yvette Herrell, New Mexico
Katie Porter, California
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on April 16, 2021...................................     1

                               Witnesses

Mr. Gundeep Ahluwalia, Chief Information Officer, Department of 
  Labor
Oral Statement...................................................     5
Mr. Jay Mahanand, Chief Information Officer, U.S. Agency for 
  International Development
Oral Statement...................................................     6
Mr. Kevin Walsh, Director of Information Technology and 
  Cybersecurity Issues, Government Accountability Office
Oral Statement...................................................     8

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below.

  * FITARA-Metric Recommendation from MicroFocus; submitted by 
  Chairman Connolly.

  * Granite-EIS testimony; Chairman Connolly.

  * QFRs to: Mr. Ahluwalia; submitted by Chairman Connolly.

  * QFRs to: Mr. Mahanand; submitted by Chairman Connolly.

  * QFRs to: Mr. Walsh; submitted by Chairman Connolly.

Documents are available at: docs.house.gov.

 
                   AGENCY COMPLIANCE WITH THE FEDERAL
                   INFORMATION TECHNOLOGY ACQUISITION
                          REFORM ACT (FITARA)

                              ----------                              


                         Friday, April 16, 2021

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 9:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Gerald E. 
Connolly (chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Norton, Davis, Porter, 
Hice, Keller, Biggs, and Comer (ex officio).
    Mr. Connolly. This subcommittee will come to order.
    Some witnesses and persons and others will appear remotely 
via Zoom today. Since some members and witnesses are appearing 
in person, let me first remind everyone that pursuant to 
guidance from the House Attending Physician, all individuals 
attending this hearing in person must wear a face mask. Members 
who are not wearing a face mask will not be recognized.
    Let me also make a few reminders to those members appearing 
in person. You will only see members and witnesses appearing 
remotely on the screens in this hearing room. On one side of 
the room you can see the individual who is speaking in what is 
known in Zoom as speaker view. On the other side you'll see the 
collection of individuals within the Zoom platform. A timer is 
visible in the room directly in front of you.
    For members and witnesses
    [inaudible].
    I now recognize myself for an opening statement.
    Since the enactment of the Federal Information Technology 
Acquisition Reform Act in 2014, this subcommittee has 
maintained steady and bipartisan oversight of the agency 
implementation of the law. FITARA was enacted to establish a 
long-term framework through which Federal IT investments could 
be tracked, assessed, and managed to significantly reduce 
wasteful spending and improve project outcomes. FITARA is a 
report card that holds agencies accountable and exhorts them to 
improve their IT postures, and in practice, it's a tool for 
Congress and the public to ensure better cybersecurity, reduce 
wasteful spending, and make government service to the Nation 
more effective. The coronavirus pandemic has proven that IT is 
integral, not incidental, to the mission. As we have seen both 
at the Federal and state, local level of government, if the IT 
does not work, the mission does not work.
    Today's hearing will discuss the results of Scorecard 11.0, 
which was released in December. This hearing will also focus on 
how Congress and the administration can work together to 
approve services to the Nation with a focus on improving IT 
across the government. Today's hearing also comes weeks after 
Congress was able to secure a billion dollars in the Technology 
Modernization Fund so that agencies have more opportunities to 
improve IT and enhance cybersecurity.
    We look forward to engaging with the Office of Management 
and Budget about the importance of IT modernization and this 
funding opportunity at the next FITARA hearing in July.
    Last summer marked the tenth FITARA oversight hearing in 
the last five years and the first time that all 24 agencies 
participating in the FITARA Scorecard received passing grades. 
Since the FITARA 10.0 Scorecard, three agency grades increased, 
five decreased, and 16 remained unchanged. Further, despite the 
removal and addition of metrics, all 24 agencies maintained 
passing grades for the second time in 11 Scorecards.
    FITARA 11.0 marks the first--a few firsts in the five-year 
history of the Scorecard. The Scorecard marks the first time, 
for example, in FITARA's history that all 24 agencies included 
in the law received at least one A in a single metric. And that 
metric was the software licensing metric, the first time that 
metric will also be retired because everybody gets an A. When 
the subcommittee added this metric to the Scorecard back in 
June 2017, only two agencies had such inventories. Agencies 
needed a better management software licenses to make cost-
effective decisions and to achieve savings.
    As a result of continued oversight using the FITARA 
Scorecard, all 24 agencies are now using comprehensive, 
regularly updated inventories of the software licenses, 
enabling those agencies to identify duplicative licenses and 
software costs.
    The GAO, the Government Accountability Office, estimates 
that agencies have saved or avoided more than $1.4 billion in 
software licensing costs from Fiscal Year 2015 through Fiscal 
Year 2020 because they are now using comprehensive, regularly 
updated inventories. These types of small but significant 
adjustments over the vast enterprise of Government can rack up 
significant savings pretty quickly.
    FITARA 11.0 also marks the addition of a new metric which 
evaluates agencies' efforts to transition off the General 
Services Administration's expiring telecommunication contracts 
before they expire in May 2023. The new measure incentivizes 
agencies to progress toward telecom services that deliver 
critical services at lower costs to taxpayers.
    Since the Scorecard's inception in 2015, agencies have made 
substantial positive strides in improving their information 
technology practices. Among the FITARA Scorecard categories 
with the greatest impact on taxpayer savings, of course, is the 
IT portfolio review process known as PortfolioStat. 
PortfolioStat went from helping Federal agencies save $3.4 
billion in Fiscal Year 2015 to $22.8 billion at the beginning 
of Fiscal Year 2021. Let me repeat that. We got savings of $3.4 
billion back in 2015. Six years later, the savings are at $22.8 
billion.
    Federal agencies are closing and consolidating more data 
centers which also results and significant cost savings. The 24 
graded agencies have reported more than $5 billion in cost 
savings in that category from fiscal years 2015 to 2020.
    While the FITARA Scorecard has successfully help agencies 
move the needle on improving IT practices, work still remains. 
According to GAO, 21 of the 24 graded agencies still not have 
established policies that fully address the role of their CIO 
as required by Federal law and FITARA guidance. Improving the 
management of IT acquisitions and operations remains on GAO's 
high-risk list. Citing the need for OMB and Federal agencies to 
implement all of the statutory provisions of FITARA. Further in 
the most recent high-risk list, GAO reported that significant 
attention was needed to improve the Federal Government's 
management of IT acquisitions and operations and to ensure the 
Nation's cybersecurity.
    The coronavirus pandemic has highlighted that chief 
information officers are more central now than ever before. 
Nearly every Federal program service and function relies on IT 
in order to work. It's among the duties of the CIO to plan for 
agency IT needs, including the resources required to accomplish 
the mission. Outdated legacy systems, software and hardware, 
however, continually prevent agencies from providing the 
services the American public expects and demands and deserves.
    To determine the scope and feasibility of IT modernization, 
CIOs must be more involved in the agency performance planning. 
That's why today I introduce the Performance Enhancement Reform 
Act with my ranking member, Mr. Hice. This important piece of 
legislation requires agencies' performance goals to meet the 
demands of the ever-changing performance management landscape 
and includes data evidence and IT in their performance plan. 
The bill would also require agencies to publish their 
technology modernization estimates, system upgrades, staff 
technology skills and expertise, and other resources and 
strategies needed and required to meet these performance goals.
    The subcommittee will continue to evolve the Scorecard in 
ways that facilitate tracking improvement over time, while 
adding new metrics as necessary to raise the bar on what is 
needed across the Federal enterprise. I look forward to today's 
important conversation so that we continue to provide accurate 
oversight and to exhort Federal agencies to come into the 21st 
century with their IT.
    I now call my friend from Georgia, the distinguished 
ranging member, Mr. Hice, for his opening remarks.
    Mr. Hice. Thank you, Chairman Connolly, and I appreciate 
your leadership on this issue and for holding this hearing 
today.
    I likewise understand that the intent had been to invite 
the new Federal Chief Information Officer, Clare Martorana, but 
due to a family emergency, she is not able to be here. So, I 
certainly extend my sympathies to her and her family and look 
forward to working with her in the future as well and I 
understand likewise the urgency of holding this hearing but 
certainly regret the fact that we're not going to have the 
benefit of her views and hope we'll be able to have that at 
some point in the future.
    That being said, FITARA no doubt has been a bright spot of 
bipartisan work for this committee /and I look forward to 
continuing those efforts in regards specifically to this 
Scorecard and its usefulness as it relates to IT reform in the 
future.
    But while agencies have certainly progressed over the past 
five years, the task, as always, is to ensure that we are 
keeping the Scorecard current. We want to make sure that it's 
measuring the most relevant facets as it relates to the IT 
universe, and I look forward to the perspective of our 
witnesses today on how the Scorecard may potentially need to 
change as we continue going forward.
    Since our last FITARA hearing in August, the Scorecard, as 
we all know, has been modified. It's gone--what is gone is the 
software licensing inventory required by the MEGABYTE Act and, 
as Chairman Connolly has mentioned, the agencies were receiving 
an A grade and that has been replaced by new category, 
Enterprise Information Systems. This is a new contract vehicle 
for agency telecommunications and will finally bring many 
benefits, I believe, including enhanced user experience and 
cost savings. My hope is that it will, in addition, drive 
agencies toward faster implementation, which has been a concern 
for many of us for a long time. We need to be able to meet the 
goals, not just have goals.
    But there have been more important events since our last 
hearing than the Scorecard changes itself. Of course, the 
biggest has been the solar wind cyber-attack. This certainly 
reinforces the urgency to do everything we can as policymakers 
to keep Federal networks secure. That obviously is a major 
concern to all of us on both sides of the aisle.
    In addition, a year has now passed since the COVID pandemic 
and the many multiple ways that it stressed agencies' ability 
to both operate and serve citizens in a remote digital 
environment. So, as we look to the future, gauging how we will 
accomplish these tasks, that certainly should be a top priority 
as well.
    This goes hand-in-hand with the need to modernize aging 
legacy systems, also a very deep concern for many of us. These 
old systems simply are not able to manage the demands and 
expectations of Americans here in the 21st century. We've got 
to replace these legacy systems.
    So, in closing, I do want to thank our witnesses who are 
here today. Thank you for taking your time to be with us. I'm 
eager to hear your insights and your suggestions and look 
forward to listening to your statements and to working with you 
as we move forward.
    And so, again, thank you, Chairman Connolly, for your 
leadership in this area and this hearing.
    And, with that, I'll yield back.
    Mr. Connolly. Thank you so much, Mr. Hice.
    I'd like to introduce our witnesses today. We're grateful 
to have their expertise. Our first witness is Gundeep Ahluwalia 
who is the Chief Information Officer for the Department of 
Labor. Then we will hear from Jay Mahanand who is the Chief 
Information Officer for the U.S. Agency for International 
Development. And last but not least, we have Mr. Walsh 
representing the Government Accountability Office, which has 
been a great partner for us, and he serves as the Director of 
Information Technology and Cybersecurity at GAO.
    If the witnesses would be unmuted and raise their right 
hand and, Mr. Walsh, if you would stand and raise your right 
hand, it is the custom of our committee to swear in all 
witnesses.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Ahluwalia. I do.
    Mr. Mahanand. I do.
    Mr. Walsh. I do.
    Mr. Connolly. Let the record show all three of our 
witnesses have answered in the affirmative.
    Without objection, your written statements, full written 
statements will be entered into the record.
    And, with that, Mr. Ahluwalia, you're recognized for your 
five-minute summation of testimony. Welcome.

  STATEMENT OF GUNDEEP AHLUWALIA, CHIEF INFORMATION OFFICER, 
                      DEPARTMENT OF LABOR

    Mr. Ahluwalia. Thank you, Chairman Connolly, Ranking Member 
Hice, and the members of the subcommittee for the opportunity 
to speak here today about IT at the Department of Labor. I want 
to thank DOL leadership and all DOL employees for their hard 
work and dedication in support of wage earners, job seekers, 
and retirees across the country. I also want to thank Congress 
for your continued support with FITARA and the resources for IT 
modernization as a whole.
    As CIO, I have always strived to maximize available 
resources and apply them to an IT strategy, enabling data-
driven decisionmaking and digitization aimed at better mission 
outcomes. FITARA's Scorecard helps show an agency's IT success, 
growth, and areas that may need improvement.
    The Department's high marks in implementing FITARA is a 
testament to our organization's commitment to IT modernization. 
We are the only agency to receive A grades in six of the seven 
categories. As a result of our efforts in implementing FITARA 
and upgrading our infrastructure, Labor was able to quickly 
transition 95 percent of our work force to a remote work 
environment when the COVID-19 started, without any 
interruptions to mission delivery.
    We maintained mission activities for 27 subagencies and 
onboarded more than 1,500 staff virtually. We continued to 
provide critical services for the American public, including 
protecting 401(k)'s, inspecting mines, ensuring workplace 
safety, and handling increased website traffic as people 
accessed weekly and monthly unemployment numbers.
    It is important to note that investing in IT modernization 
is not a once-and-done scenario. During my time as CIO of the 
Department of Labor, our focus has been on paying down our 
technological debt, enabling the IT strategy, and utilizing the 
tools Congress has provided with FITARA, Modernizing Government 
Technology Act, and the Technology Modernization Fund. In 
addition to innovative contracting strategies, we are taking 
advantage of the TMF funding opportunities coupled with our 
Working Capital Fund authority and appropriations for IT 
modernization.
    For example, in 2018, we used the TMF funding to streamline 
the temporary labor certification program from a paper-based to 
a completely digital process, resulting in a $2 million 
annual--$2 million annual savings for the department. We are 
also centralizing IT, HR, and procurement functions, which has 
helped us avoid costs in the past and has positioned us to 
drive efficiencies in the future.
    We are proud of the digitization successes we have achieved 
by modernizing our DOL websites to positively impact workers, 
employers, and the American public. For example, we developed 
apprenticeship.gov, a one-stop-shop website to bring together 
educators, employers, and job seekers to easily search for over 
24,000 apprenticeship opportunities across the Nation.
    And as referenced earlier, the temp labor certification 
process, DOL created a completely digital electronic boarding 
pass mechanism. By developing the system, we were able to 
reduce processing times and the need for manual printing and 
shipping.
    The Department of Labor continued to move forward with its 
modernization efforts and has been successful in large part due 
to the funding mechanisms that Congress has enacted and 
supported. In fact, we are grateful to have received TMF 
funding for our enterprise data modernization initiative. This 
marks the second TMF award for DOL.
    Thank you for your time today and your continued support to 
FITARA--for FITARA and IT modernization efforts. I look back--I 
look forward to answering any of your questions.
    I yield back, Chairman.
    Mr. Connolly. Thank you, Mr. Ahluwalia, and you're a pro. 
You had, like, 49 seconds to go. So, thank you.
    Mr. Mahanand, you are now recognized for your five-minute 
summation of item.

  STATEMENT OF JAY MAHANAND, CHIEF INFORMATION OFFICER, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Mahanand. Chairman Connolly, Ranking Member Hice, 
members of the subcommittee, thank you for inviting me to 
testify today. I'm grateful for the committee's support, and 
I'm pleased to have this opportunity to discuss USAID's 
progress in complying with the standards set out in FITARA.
    The global pandemic changed how we work, how we live, and 
how we interact with each other. For USAID and its people, 
responding to these global health crises is at the core of our 
mission. We have a longstanding history of dealing with 
emerging threats and global health security such as Ebola and 
now COVID-19. Because of this rich history, we were able to 
rapidly virtualize USAID's work force and leverage our 
leadership in cloud technology to lessen the impact on the 
agency's most valuable asset: its people.
    USAID global IT infrastructure plays a critical role in 
enabling and enhancing every aspect of the Agency's mission. 
Our 12,000-plus people in more than 120 countries, often under 
the most difficult circumstances where communication 
capabilities are severely limited, they depend on our cloud-
based architecture to successful perform USAID's critical work. 
Because of this, we're an organization that relies on cloud 
services and solutions that enable data-driven decisions and 
maximize the impact of those efforts.
    Now more than ever, reliable and secure and effective 
information technology systems and services are essential to 
USAID achieving its mission. As a global organization that 
works in some of the most challenging locations around the 
world and given the business demands of how USAID delivers U.S. 
foreign assistance on the ground, our overseas staff have been 
heavily reliant on modern and mobile IT solutions, even prior 
to the COVID-19 pandemic.
    The move to a cloud-based email messaging and collaboration 
platform back in 2011 significantly and quickly improved USAID 
mission delivery. It provided a mobile, on-demand messaging 
platform that meets the needs of the Agency's global work 
force, improved cost-efficiency, enhanced cybersecurity and 
overall functional operational improvements to our IT 
environment. As early adopters, our leadership and staff across 
the agency are accustomed to working in a cloud environment, 
leveraging the cloud to underpin our communication, security, 
data, and development backgrounds.
    Today USAID is 100 percent cloud-based with no legacy 
systems.
    Given all that has transpired this past year, I think about 
where USAID was 10-plus years ago, where we are today, and what 
has helped us get here. Although our journey to the cloud began 
before FITARA and the Scorecards, the impact and benefits we 
have realized by its creation and evolution has significantly 
aided our journey. FITARA has served as a cornerstone for 
establishing, measuring, and helping advance critical IT 
programs for CIOs across the government. Our USAID's 
legislation has underpinned our success in aligning the people, 
processes, and technology needed to balance innovation with 
compliance, mission needs, costs, and evolving threats. It has 
also provided an opportunity to have a collaborative dialog 
with OMB, GAO, the committee, and Congress, working together to 
improve how agencies implement FITARA.
    Although agencies will continue to face significant IT 
challenges and risks, this past year has shown the true 
benefits of a modernized, agile, innovative IT organization 
particularly during a global crisis. Aside from the technology 
challenges and moving thousands of employees to full-time 
telework overnight, the pandemic also ushered a new, more 
sophisticated way of cyber-attacks. As we have seen recently in 
the Solar Winds and Microsoft Exchange breaches, the threats 
are growing more pervasive, sophisticated, and damaging to both 
government and private sector organizations. As these threats 
become more advanced, the need for the Federal Government to 
further enhance its cybersecurity posture and better understand 
the various supply chains continue to grow.
    Over the past year USAID has expanded its effort to 
leverage state-of-the-art technology, such as AI and RPA, to 
help the Agency realize the full potential within its many data 
sources. Each project represents a significant investment USAID 
is making in innovation tools and platforms that will continue 
to help secure our network and data globally and help us keep 
pace with the Agency ever-changing technology and information 
needs.
    USAID looks forward to the continued benefits the Scorecard 
and its measurement provide to Federal CIOs. Having consistent 
IT priorities across all agencies enhances mission outcome and 
provides a roadmap of technology investment that maximizes 
taxpayer dollars.
    I would like to thank the Members of Congress, members of 
this subcommittee in particular, for your continued leadership, 
interest in, and support of our work. USAID looks forward to 
collaborating with you to address future challenges and new 
opportunities for reform.
    Thank you for your time. I welcome your question.
    Mr. Connolly. Thank you. Thank you. And you had 30 seconds 
left. So, thank you.
    I will say to you, Mr. Mahanand, a little piece of history 
you may not know. In 1979, when I got out of the graduate 
school, I was a Presidential management intern and I was 
offered a job at AID to help translate IT and policy. In that 
time cell phones didn't exist. The Internet didn't exist. 
Social media didn't exist. PCs didn't exist. It was a very 
primitive time. But can you imagine how history might have been 
different for you and me and my colleagues in this committee 
had I taken that job? Anyway, I'm glad you're there.
    Mr. Walsh, welcome again, and you are recognized for five 
minutes for summation of your testimony.

 STATEMENT OF KEVIN WALSH, DIRECTOR OF INFORMATION TECHNOLOGY 
   AND CYBERSECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walsh. Chairman Connolly, Ranking Member Hice, members 
of the subcommittee, thank you for inviting GAO to testify on 
this important issue today.
    To begin, I'd like to share one of my favorite Scorecard-
related quotes from the chairman who has repeatedly said that 
the Scorecard is not intended to be a scarlet letter. Rather it 
is intended to start a conversation and to make sure that CIOs 
are part of that conversation. Regardless of the letter grades 
on the Scorecard itself, I think that elevation of our agency 
CIOs may be the most impactful effect of the committee's 
oversight. So, thanks to you and to your staff for your 
continued contributions to and oversight of Federal IT. Your 
persistent, thorough, and bipartisan oversight has changed the 
way the government manages its technology.
    Here are some key highlights of the progress that we have 
seen. Major increases in the authority for the five CIOs that 
now directly report to the agency header deputy; minor, but no 
less important, increases in the authority and influence of all 
CIOs, largely due to the attention the Scorecard has brought to 
the role; and better management of agencies' IT portfolios to 
the tune of $22.8 billion saved.
    As the chairman noted, the most recent 11 Scorecard 
introduced two significant changes. First, the committee sunset 
the area related to software licenses. When the committee added 
this area in 2017, there were just two agencies that were using 
comprehensive, regularly updated inventories of software 
licenses. Now all 24 agencies do, resulting in a number of easy 
A grades for the past several Scorecard cycles.
    Second, the committee added a new area related to agencies' 
efforts to transition off GSA's expiring telecommunications 
contracts. This area needs the committee's oversight because 
the last time the government went through a similar transition 
onto the network's contracts, the government took 33 months 
longer than planned. It resulted in $66 million in added costs 
and an estimated $329 million in lost savings.
    As you might expect, replacing the easy A of software 
licenses and the addition of the area on telecommunications 
transition put downward pressure on agencies' grades. Despite 
this, every agency passed by either receiving a B or a C. That 
may not always be the case. Agencies' past wins are no 
guarantee of future success, and the Scorecard reflects that.
    The Scorecard's continued growth has kept it relevant, and 
it will be an important tool for keeping Federal leaders 
accountable going forward. For example, the Scorecard could 
measure Federal websites' compliance with industry best 
practices in conjunction with the IDEA Act. It could also 
reward or give a bonus to the usage of the billion dollars 
recently received by the Technology Modernization Fund.
    However, the Scorecard is only as good as the data behind 
it. In that vein, it would be great to see OMB's IT dashboard 
reflect more of the government's IT spending. For example, 
right now, the dashboard does not include IT spending related 
to weapons systems, satellites, or supercomputers. The 
government's budding efforts to implement Technology Business 
Management, known as TBM, may help in that regard by closely 
linking agencies' accounting systems to IT oversight. However, 
half measures or an implementation that mimics true TBM will 
perpetuate the underreporting of IT spending.
    I should also note that the Scorecard is not a panacea. 
There are many critically important topics that are difficult 
to implement and grade and address: for example, measures of 
how well an agency serves the citizens, an agency's human 
capital skills and gaps, or even the IT acquisition cadres and 
strategic sourcing required under FITARA. Metrics on softer 
topics such as these are incredibly difficult to measure. How 
well has USAID's technology served our farmers or the IT and 
IRS our taxpayers? Has the DOD protected our citizens enough?
    These gaps also stress the significance of the work done by 
public servants who, regardless of the Scorecard's grades, do 
incredible work. These gaps in coverage also underscore the 
importance of having trusted, competent IT leaders and ensuring 
that they are a part of conversation.
    To that end, I look forward to our continued conversations 
and the improvement of IT oversight. This concludes my 
comments, and I look forward to your questions.
    Mr. Connolly. Thank you, Mr. Walsh, also, 30 seconds.
    I mean, we've got three stars this morning, Mr. Hice.
    The chair now recognizes the distinguished Congresswoman 
from the District of Columbia, Eleanor Holmes Norton, for five 
minutes of questioning.
    Ms. Norton. Thank you very much, Mr. Chairman. Chairman 
Connolly, I very much appreciate these periodic hearings.
    My first question is for Mr. Walsh. The Federal Government 
currently invests about $90 billion annually in IT. Now what 
troubles me is that a third of the funding dedicated is for 
maintaining legacy systems. And so, what we're finding is that, 
as the amount of dedicated funds to IT operations and 
maintenance increases each year, the investments in the 
innovative IT projects decline.
    So, Mr. Walsh, my question to you is, how do the current 
budgeting and appropriations cycles--and we understand that's 
done on an annual basis--impede agencies' ability for investing 
in critical IT projects, especially ones that concern me, that 
seek to replace legacy systems? Is there anything we can do 
about it?
    Mr. Walsh. So, the annual appropriations process----
    Mr. Connolly. Mr. Walsh, I am going to--you are soft-
spoken. If you would move that as close to you as possible, 
thank you so much.
    Mr. Walsh. Thank you, chairman.
    So, the annual appropriations process certainly does not 
help our efforts to modernize Federal IT. Having to save up 
multiple years to address a critical need is not currently 
possible. The MGT Act a few years ago attempted to address that 
by allowing agencies to save money in a Working Capital Fund 
and use the savings to address cybersecurity and modernization 
needs. So, I think that's a good step forward. However, the MGT 
Act did include a critical flaw that has prevented many 
agencies from fully taking advantage of those flexibilities.
    Ms. Norton. I can see that the problem's in the Congress.
    Mr. Walsh, several of the agencies have said that the 
reimbursement model itself is cumbersome, especially for IT 
projects that are critical to the mission but might not realize 
costs. What other considerations should Congress, and the 
administration take into account, other than projects that 
realize hard costs?
    Mr. Walsh. So, as you correctly note, there are many, many, 
many things that we should consider when modernizing legacy 
systems. In particular, the functionality is very important. 
But there are also very, very old systems that cannot be 
modernized. For example, we wouldn't want to modernize the 
Voyager space probe's ground systems. We can't modernize the 
Voyager. It's out past the edge of the solar system at this 
point.
    But the cost and the functionality are crucial, and in many 
cases, modernizing systems cannot result in cost savings. The 
new systems that we're using right now in the cloud have a lot 
better capabilities. They have a lot better security than some 
of these very, very old systems.
    So, you correctly note that, in many cases, we may not save 
costs doing modernization, but it would be better for the 
services of our taxpayers to do so.
    Ms. Norton. Thank you.
    Finally, Mr. Mahanand, could you talk about your experience 
with establishing an IT capital fund at USAID?
    Mr. Mahanand. So, that has been an ongoing issue for the 
last three years for us. We've actually worked very close to 
OMB, our examiner and senior level, senior leadership within 
the agency. They are all very supportive as far as getting--
putting the language together and getting us to at least get it 
into the President's request, but as far as what happened 
there, we're not necessarily sure. We actually included it in 
the 2019, 2020, and 2021 budget requests. But it never made it 
into any of the appropriations.
    Ms. Norton. My time is close to expire. I had another 
question.
    But thank you very much, Mr. Chairman.
    Mr. Connolly. If you have one more question, Ms. Norton, 
you're free to ask it.
    Ms. Norton. Yes. Mr. Ahluwalia, how can technology, the 
Technology Management Fund, which was established by the 
Modernizing Government Technology Act, which received $1 
billion, and the American Rescue Plan, has that helped the 
Department of Labor accelerate certain IT modernization 
projects?
    Mr. Ahluwalia. Thank you, Congresswoman. So, I'll try to be 
really very quick here.
    We are one of the few agencies who has received two TMF 
awards from that board, and it is a toolset that we use in 
conjunction with our appropriations Working Capital Fund 
authorities to resource and modernize technologies. I am very 
proud of one of recent temp worker program. The visa requires a 
labor certificate from DOL that used to be printed on a 
currency-like paper, and I shudder to think what would have 
happened to that printing operation during COVID-19. 
Fortunately, this January, in part due to the TMF funding, we 
were able to completely digitize that process and shut down the 
printing operations, which has now resulted in a $2 million 
savings that will be returned to the fund.
    I do agree with my colleague, Kevin Walsh. Not every--when 
you replace a bicycle with a motor car, will it result in 
savings? The motor car will require sometimes more to maintain, 
but it takes you farther and faster. So, that construct has to 
be considered in the future mechanisms when the DMF awards are 
made.
    Mr. Connolly. Thank you very much.
    Thank you, Ms. Norton.
    The chair now recognizes the distinguish ranking member, 
Mr. Hice, for five minutes of questions.
    Mr. Hice. Thank you, Mr. Chairman.
    Yes, the challenge of any effort like FITARA at the end of 
the day is to prevent it from going stale. I think, when we are 
trying to ensure Federal IT funding is spent well, the most 
obvious question is whether there are metrics to determine 
whether or not that money is spent well and how we gauge it. 
So, let me start with this train of thought.
    Mr. Walsh--and we spoke a little bit about this before the 
hearing this morning. But given the fact that this is the 11th 
iteration of the Scorecard, what changes perhaps need to be 
considered by the committee to deal with the metrics to make 
sure we're being effective?
    Mr. Walsh. So, to the Scorecard's credit and to the 
committee's credit, it has changed in every single iteration 
since the second. Every single time the committee has made 
sometimes minor but important tweaks to improve this Scorecard. 
This most recent 11 Scorecard is an excellent example of some 
of the changes that can be made with the sunsetting of the 
software licensing and the adding of EIS. So, it's a credit to 
the committee that this Scorecard continues to evolve and 
change.
    To get closer to how to evaluate the efficacy of how the 
government is spending our money is a very, very difficult 
concept, sir. I think the Scorecard is helping move us in that 
direction, but measuring how good an agency is at delivering 
its mission or meeting its mission is something that we in the 
GAO and Congress have struggled with for quite a long time.
    Mr. Hice. Well, is there any way we can quantify the return 
on investment through 11 scorecards so far?
    Mr. Walsh. So, the $22.8 billion that have been saved or 
avoided as a result of the PortfolioStat initiative is one 
very, very large metric we can use to measure ourselves. The 
increases in CIO authorities are also important but harder to 
quantify.
    Mr. Hice. I would like to see more of that on a page, like, 
how do we really know there's this much savings, and where is 
that savings coming from?
    You mentioned in your opening statement the Solar Winds and 
several--a couple of our witnesses did. Again, the metrics of 
something like solar wind in the Scorecard, how do we develop 
that to better equip Congress to recognize problems and deal 
with problems before they happen?
    Mr. Walsh. So, part of the challenge when deliberating with 
you folks on how to come up with these metrics is what data are 
currently available. Especially in the case of supply chains, 
we want to be careful not to utilize nonpublic data. We don't 
want to put a target on any agency's head that's not already 
there. I agree that supply chain management and the risks 
associated are critically important to cybersecurity and our 
government's operations, and we would love to work to explore 
further metrics that we can use to measure that. I think a note 
of caution is warranted though with things as secure and 
sensitive as that.
    Mr. Hice. Let me cast that question over to Mr. Mahanand 
and Mr. Ahluwalia. As it relates to the cyber issue, the cyber-
attacks, No. 1, I guess, what keeps you both up at night? And 
what can we do on this thing and on our side as it relates to 
the Scorecard to better assess where we are on the cyber-attack 
concern?
    Mr. Mahanand?
    Mr. Mahanand. Yes. So, I think we're on a good path here. 
If you actually look at the cybersecurity metrics that you have 
on the Scorecard, half of it is about cross-agency priority 
goals, which is something that the agency--the Federal 
Government can decide, know exactly how they want to measure 
that. But the other part of that is really it comes from the 
audit of your system or the audit of your network. And as far 
as that audit is concerned, it does take a close look at really 
the controls that you have in place in terms of your systems. 
And it gets to whether, you know, you are doing well in 
cybersecurity, where you're actually monitoring and managing 
it, or you're not doing so well in it.
    I think that's a really good start because in the new 
version of the kind of the audit document here, they're going 
to be looking at supply chain controls for the next, you know, 
assessment period here. So, I would think that, as far as the 
metric is concerned, I think it's a good place to start. You 
can also incorporate more into that as far as the cross-agency 
goals or as far as the audit is concerned.
    But this is something that I know it is becoming more 
visible. I just think this year the audit is possibly going to 
be looking at supply chain and controls the agency may have in 
place. So, I think you will get some better, you know, better 
data when the audit is complete or the next Scorecard is put 
out.
    Mr. Hice. OK. Mr. Ahluwalia--I'm sorry--if you could 
provide us an answer with that, I'm really curious. I mean, you 
are among our experts, and I'm curious how we can be better 
informed as Congress when it comes to the cyber threat. So, if 
you could provide an answerfor us in the next week or so, I 
would appreciate that.
    Mr. Ahluwalia. Happy to do that, Congressman Hice.
    Mr. Hice. Thank you. I yield back.
    Mr. Connolly. I thank the ranking member.
    The chair recognizes himself for five minutes.
    Mr. Walsh, what is a legacy system?
    Mr. Walsh. So, legacy means many things to many different 
people.
    Mr. Connolly. I have got to hear you. You have got to speak 
up.
    Mr. Walsh. Legacy means many things to many people, sir. I 
think probably one of the better definitions is something that 
is no longer vendor supported, whether that be hardware or 
software. So, if the vendor's not supporting it, if we're not 
able to easily maintain it, I think that's an easy definition 
of a legacy system. Similarly, you could say something along 
the lines of what DOD does, that a legacy system is a system 
that no longer meets its mission needs. So----
    Mr. Connolly. Are we concerned that, under either of those 
definitions, legacy systems cannot be encrypted to protect from 
cyber hacking, cyber attacks?
    Mr. Walsh. Absolutely, sir. And I think that's one of the 
things we saw at OPM when they had that breach a few years ago. 
One of the things that came out of that was we heard that OPM 
was not able to encrypt the data that was on the servers at 
rest because of the age of the systems.
    Mr. Connolly. I think that's a pretty critical point to be 
emphasized.
    Are agencies required, Mr. Walsh, to have a plan to retire 
or upgrade legacy systems?
    Mr. Walsh. So, we did work on this a few years ago, sir, 
and we looked at the most important and the most critical 
systems in the government to be retired, and we found that in 
many cases not only were they not required but they did not 
have plans and those plans did not include things like a 
description of the work to be done, milestones, or a plan, most 
importantly, to turn off the legacy system that they're 
retiring.
    Mr. Connolly. From GAO's points of view, think, putting on 
your high-risk category hat, would it be helpful if, in fact, 
they were required to have such a plan?
    Mr. Walsh. I think we should absolutely be thinking about 
the oldest systems in need of modernization and have some form 
of plan going forward on how to either turn it off or get it to 
a more secure space.
    Mr. Connolly. Has GAO done any kind of cost estimate? On 
just, you know, spit-balling, if we were to have by fiat all 
legacy systems need to be replaced and you need to have a plan 
to do that, what would it cost across the 24 Federal agencies 
we're looking at?
    Mr. Walsh. We have not done that work, sadly, sir. We did 
have some case studies in our report that looked at some of the 
most important, for example, one of the top 10 was--and we did 
not name these systems but it was at the IRS. IRS spent $10 
million per year to operate and maintain the system, and their 
estimate on how much it would cost to modernize the system was 
$1 billion.
    Mr. Connolly. Billion.
    Mr. Walsh. Billion.
    Mr. Connolly. With a ``B.''
    Mr. Walsh. So, to Mr. Hice's earlier comments, the return 
on investment there would be somewhat dubious.
    Mr. Connolly. Well, yes, although every dollar you're 
invested in the IRS has a return on it. It's not a sunk cost.
    Mr. Walsh. Absolutely. You've got the $40 billion that----
    Mr. Connolly. By the way, that's true for your agency as 
well. We get a return on our investments with you and your 
colleagues at GAO. So, we have to think it in those terms, too. 
And as you pointed out, then there are the sort of imponderable 
or indecipherables. But they're still so important, right, like 
quality of service to the American people. That kind of 
matters, too.
    Let me ask about CIOs. How, from GAO's point of view, when 
you're looking at the Scorecard, how much progress are we 
making or not making in having a premier CIO report directly to 
the boss?
    Mr. Walsh. So, since this first Scorecard, we now have five 
more CIOs that directly report to the boss. We also have seen 
incremental progress elsewhere. It's a lot harder to measure 
which CIOs have a seat at the table that they did not 
previously have, but those five CIOs having reporting authority 
I think is the most important metric there.
    Mr. Connolly. We've had--have we had some backsliding in 
that regard?
    Mr. Walsh. To the best of my knowledge, I am not aware of 
any agencies that are backsliding I think in large part due to 
the attention brought by this committee.
    Mr. Connolly. I mean, you know, if you look at the private 
sector, I can't think of many successful companies where the 
CIO does not directly report to the CEO and even dotted-line 
relationships in the organizational chart don't count, and 
we've got to evolve to a system where the CIO, because if we 
really mean it about fundamental changes in IT modernization, 
in order to undergird the mission, we've got to have a CIO 
who's empowered. And the best way in a bureaucracy to empower 
somebody is to make sure everyone can see that person reports 
to the boss.
    Mr. Walsh. Absolutely, sir. It's hard to imagine a company 
these days that does not have IT-involved core to its mission. 
Similarly, it's hard to imagine a government agency that does 
not have IT contributing critical amounts to its mission.
    Mr. Connolly. And final question in this round, we just got 
$1 billion for the Technology Management Fund, which is not 
what we wanted or what President Biden wanted. But it's 
certainly a huge quantum leap from what was appropriated at $25 
million. Do you believe that that $1 billion will be a 
significant catalyst to incentivize agencies to make the 
investments we're talking about including the return of legacy 
systems?
    Mr. Walsh. So, previously the fund was receiving $25 
million per year, as you noted. Getting $1 billion in a year is 
going to allow them to explore projects that were previously 
outside of their ability. They didn't have the money to address 
some of these most critical needs. So, I think it will be 
important. The challenge is going to be ramping up that team 
that manages the TMF to make sure that they have the expertise 
necessary to oversee these projects.
    Mr. Connolly. Yes, I also think we're going to have to have 
clear criteria soon because the expectations are really high 
about this. We're going to have to have criteria soon from OMB 
in terms of how that fund could be used and how it should be 
used. And we're going to hope GAO is monitoring that carefully 
so that if there are real-time issues, we can try to address 
those in real time rather than retrospectively because then the 
damage is done.
    Mr. Hice, who is to be recognized?
    Mr. Keller is recognized for five minutes.
    Mr. Keller. Thank you, Chairman Connolly. And thank you to 
the witnesses for taking time to be here today.
    The pace of government often lags behind that of the 
private sector, and the process of technology acquisition is no 
exception. As agencies struggle to keep up with current 
technology, Federal acquisitions often overshoot their targeted 
time and cost estimates. Along with ensuring cybersecurity and 
transparency, the Scorecard should measure how effectively an 
agency is purchasing and utilizing new technology. My time in 
private industry, our mentality was that the team I worked with 
could not improve unless we knew exactly how well we were 
performing and what targets we were hitting. The same should go 
for Federal agencies.
    The question I have is for all the panelists here today. 
Part of Congress' job is ensuring Americans get the most out of 
their tax dollars. How does FITARA achieve this end? And are 
they--and are there any modifications to FITARA that would help 
us better capture this metric? And that could be for anybody. 
Maybe all the panelists can give me a little bit of explanation 
of what they think.
    Mr. Connolly. Mr. Keller, without prejudice to your time, 
are you asking modifications to the Scorecard or to the 
underlying legislation itself?
    Ms. Kelly. The Scorecard.
    Mr. Connolly. Yes. Thank you.
    Mr. Ahluwalia. So, I'll go first. This is Gundeep. I'm the 
CIO for the Department of Labor.
    I think the ability to use various types of resources is, 
that span across multiple years is an important mechanism and a 
differentiator in the way government and the private sector 
works. So, I look back at my private sector years and on what 
the differences are. One is these projects are multiyear, and 
we try--and we don't have the visibility for the resources on 
that. Having a clear plan that has outcomes not about moving to 
the cloud or about taking software out--those are important as 
well--but having outcomes like I will remove paper from a labor 
certification process or digitize it completely or I'll reduce 
the number of--reduce the number of days that it takes for a 
person to consume its service from the government, or I will 
make it mobile friendly like the private sector. You can go to 
Amazon and sort of have that shopping experience and that kind 
of customer experience.
    Those are the metrics that we focus on to bringing the 
services that we render to our constituents at par with the 
private sector. And a focus on that, managing resources as a 
multiyear resource and with a strategy to execute to, those are 
the key ingredients that I remember worked in the private 
sector and would work in the public sector as well.
    Mr. Keller. So, as far as modifications to FITARA that 
would better capture the metric, I understand how we want to do 
it better. But, again, any other thoughts from the other 
witnesses?
    Mr. Mahanand. This is Jay Mahanand, USAID CIO.
    So we--as you can--from my testimony, you can see we've 
actually moved quite a bit of innovative technologies, you 
know, that we've implemented or started. For instance, really 
looking at, you know, how we can get started, I think that's 
the key to anything we do. But whether or not a technology is 
viable for an organization, that's something to be said and 
something we need to go through.
    For us, we're--an example is that we're very intensive when 
it comes to data and so, you know, questions in terms of all of 
the data that we have, what do we do with it, and how do we 
make it--you know, how do we use technology to actually 
innovate and be able to get answers on the raw data there. So, 
for us, it's really just taking, you know, some time off and 
basically create a pilot, some use cases, initiate those use 
cases with the technology that we have, and try to validate 
whether or not that is something we can go.
    But for us is that, given the fact we don't get a large 
amount of money, we simply use, you know, kind of the 
prototyping to kind of make a determination whether or not the 
technology would work for us. And so we've been pretty 
successful because if we can show the agency that, hey, this 
provides or brings value into the organization, then there's 
always funding that is, you know, that would be subsequently, 
you know, coming for that specific technology.
    So, I think that's how we do it internally because we 
always look at something. And even I mentioned, you know, 
robotic process automation, in terms of efficiency that it 
gains because, you know, there's quite a bit of just manual 
process we have in agencies. We talked about doing more for 
less. That is the way that we see things and how we would 
actually get things started. Technology has been in place. But 
we need, you know, the people, processes, and technology all to 
work together. So, we pilot certain things to make sure that 
there's an appetite for those types of technology in the agency 
because there's an adoption. There's also change-manage-related 
issues to bringing technologies in place as well.
    So, it's a complex discipline in terms of how you would 
measure that. You know, for me, kind of getting back to, you 
know, some of the comments that were made, you know, 
specifically when it comes to, you know, ROIs and, you know, 
getting money to actually make a determination of how 
technology would be used, the TMF is a good example of that. We 
kind of--it has been mentioned that, you know, for us, we 
actually made proposals in the TMF for a couple of--we would 
say innovation, and we got declined for that because it was 
more--not necessarily a modernization but also it was toward 
innovation.
    So, I think, on the TMF, my two cents is also not look just 
at modernization but, getting to your point, really is take a 
look where agencies can use that money to innovate and be 
better at that.
    Mr. Keller. Thank you. I see I'm out of time, so I yield 
back.
    Mr. Connolly. Mr. Keller, I will certainly entertain Mr. 
Walsh if he wishes to respond to your question before you yield 
back.
    Mr. Walsh. Sir, one of the ways that we could perhaps 
better measure how we are serving the citizens is how well 
their websites, which, you know, is the prime portal that 
people interact with, citizens, are compliant with best 
practices, are enforcing privacy metrics. So, that is something 
that we would love to explore with the committee and look 
forward to doing so.
    Mr. Keller. I appreciate that. Thank you.
    Mr. Connolly. And, Mr. Keller, we can talk to you offline, 
but I believe we have some legislation that actually addresses 
trying to upgrade websites and make sure they're user-friendly 
and that they're ranked and reviewed. So, that's absolutely--
because that's the portal for most citizens to the government, 
at least electronically.
    Mr. Hice, is Mr. Biggs the next one? Yes. Mr. Biggs is 
recognized for five minutes.
    Mr. Biggs. Thank you, Mr. Chairman, and I thank the 
witnesses for being here today, for sharing their perspectives 
on this critically important topic.
    Like many of my colleagues, I was especially disturbed by 
the early 2020 Solar Winds hack, which left nearly 20,000 
entities vulnerable to data breaches, including the Departments 
of Defense, State, Energy, Justice, and Treasury in the public 
sector, and Microsoft, Cisco, and FireEye in the private 
sector. Amazingly, that attack happened over the course of more 
than a year, which showed a chilling level of patience and 
discipline.
    So, my first question--and it's for each member of the 
panel--is this: How confident are you that we are better 
protected from a drawn-out, solar-wind-style attack now than we 
were in early 2020?
    And I'll start with you, Mr. Walsh.
    Mr. Walsh. So, we had a remarkably timed report at the same 
time as the Solar Winds hack, GAO 21-171, which looked at 
agencies' implementation of supply chain risk management.
    We looked at seven key practices identified by NIST 
guidance that attempted to help agencies manage those risks. We 
found that only nine agencies had done any of those seven. So, 
to your point, sir, I think we should be very concerned.
    Mr. Biggs. Please, the other panelists, please respond as 
well. Thank you, Mr. Walsh.
    Mr. Ahluwalia. So, at Labor----
    Mr. Connolly. Would my friend just yield for one second and 
without prejudice to----
    Mr. Biggs. Yes. Yes, Mr. Chairman.
    Mr. Connolly. Just to followup on that. Could it have been 
avoided? I mean, you said we need to be very concerned. Well--
but could we have stopped it, done something about it?
    Mr. Walsh. So, one of the seven practices that we 
identified is helping to detect problematic items in your 
supply chain. But, backing up it even further than that, part 
of the issue is knowing what your supply chains are.
    There are many agencies that don't fully know what their 
supply chain, not only of the hardware but also of the 
software, is. So, I think could we have prevented it? Probably 
not at that time. It's disappointing as well that it took so 
long to detect it. So, it's very, very concerning, sir.
    Mr. Connolly. Thank you for yielding.
    Mr. Biggs. You bet, Mr. Chairman.
    And I--just so you know, Mr. Chairman, I intend--if there 
is time, I want to followup with what's happening now and the 
steps that are being taken.
    So, would the other panelists please respond.
    Mr. Ahluwalia. So, at Labor, just like other departments, 
we take the cybersecurity very seriously. I think the DHS' 
Continuous Diagnostics and Mitigation Program, the CDM program, 
has had significant impact and probably protected us from that 
breach when it happened.
    We've implemented a 24/7 SOC. We are meeting--and 
implemented newer technology as well.
    I completely agree with my fellow panel members here, as 
well as the committee, that the supply chain risk remains one 
of the largest risks that is there to the entire U.S. economy, 
in the private sector as well as public sector.
    From the public sector perspective, it is my thinking that 
there are some steps that can be taken in individual 
departments. For example, understanding what our supply chain 
means, adding language to our contracts, and things of that 
nature.
    But then a more comprehensive approach, looking at the CDM 
success, I think can be led by DHS. That crosscuts and protects 
the entire government apparatus rather than piecemealing it at 
each department at a time.
    So, I think there is a combination of a strategy where some 
steps need to be taken locally within the departments, and then 
a comprehensive CISA-, DHS-led strategy to protect our 
apparatus would be the biggest bang for the buck, Congressman.
    Mr. Biggs. Thank you. And then our last panelist, if you 
could please be brief because I want to get back to what are we 
doing now, how are we going to get----
    Mr. Mahanand. Yes. So, just to--the one thing that we need 
to realize is that this is a cost application that was 
vulnerable, right? And so one of the things that we really need 
to look at is the supply chain. But, also, how do we extend 
some of the cybersecurity measures to these specific vendors? 
And it's something that we need to think about.
    I know DOD is looking at the cybersecurity certification 
for vendors, but that is something within the Federal space we 
know--we have risk-management frameworks. We have cybersecurity 
frameworks. We have everything to protect our systems in C.
    The ability to, you know, implement zero-trust--zero-trust 
architecture is something that we are all looking to do. But 
the point still goes back to we still need to do something with 
the vendors to make sure that there is some sort of 
certification that they also validate the supply chain.
    Thank you.
    Mr. Biggs. Thank you.
    Mr. Walsh, would you please respond to the followup 
question, which is where are we going----
    Mr. Connolly. Mr. Biggs, if you had a brief followup, 
you're recognized for that.
    Mr. Biggs. Thank you, sir.
    Mr. Walsh, if you'd just go to the followup, which is where 
are we going from here?
    Mr. Walsh. Sure. So, I think the best practices that we can 
implement are detailed in the report I cited earlier, which is, 
as Mr. Mahanand said, getting some idea of what our supply 
chains are and working closely with the vendors to make sure 
that we are securing them.
    Having executive oversight is also very critical. But, to 
sound an alert on where we are now, the Cybersecurity and 
Infrastructure Security Agency has issued multiple alerts over 
the past several months citing similar things happening with, 
for example, Microsoft Exchange, or even our critical 
infrastructure--the water, power plants, and the like--which 
were vulnerable to attacks.
    Mr. Biggs. Thank you, Mr. Walsh.
    And thank you, Mr. Chairman. And I hope that, in the 
future, we might have an additional time where we can actually 
expand on this particular topic even further.
    Mr. Connolly. Absolutely. Be glad to work with you on that, 
especially, frankly, the--Mr. Walsh's insight in terms of 
supply chain. I think that's really--we need to understand that 
more than the phrase, right? Like, are we talking hundreds of 
parts? Because, if that's the case, no wonder somebody could 
penetrate, because----
    Mr. Biggs. Right.
    Mr. Connolly [continuing]. how are we monitoring all that. 
What are the mechanisms for monitoring all of that?
    Mr. Walsh. Sir, it's not only the parts, but it's also the 
software. Every single piece of cloud software that we have 
installed on the network is potentially----
    Mr. Connolly. No, no. I'm including that in the supply 
chain. And, I mean, when I heard that, it--my ears perked up. 
So, we'll followup on that, Mr. Biggs, with you. Thank you so 
much.
    We're joined by the vice chairwoman of the subcommittee, 
the gentlelady--and I know it's early out there in California, 
so thank you so much for joining us so early. Ms. Porter is 
recognized for five minutes.
    Ms. Porter. Thank you very much, Chair.
    Mr. Walsh, can you briefly tell the committee what a data 
center is?
    Mr. Walsh. So, currently, OMB defines a data center in two 
different tiers. A tiered data center is essentially something 
that you probably picture when you hear the word data center. 
It was purpose built. It has uninterruptible power supply, 
cooling solutions, and the like.
    There is also what OMB categorizes as a nontiered data 
center, which are getting less attention, but those are things 
like servers in smaller rooms that were not purpose built but 
are still important vectors of bad actors trying to get into 
our agencies.
    Ms. Porter. I understand that there is a data center 
operation initiative. What is it meant to do exactly?
    Mr. Walsh. So, the data center optimization initiative is 
intended to help our data centers, the big ones that already 
exist not only consolidate but get better. So, we want them to 
utilize more of their capacity. We want them to run on more 
modern hardware, which can save us operational costs, and make 
sure that we're best using the tools that we have available to 
serve our citizens.
    Mr. Connolly. Could I interrupt one second, Ms. Porter----
    Ms. Porter. Of course, sir.
    Mr. Connolly [continuing]. on that point? I want to stress 
the law, FITARA, refers to data center consolidation. It does 
not refer to optimization, a phrase that was invented by OMB 
and OPM that we were--this subcommittee, on a bipartisan basis, 
was concerned could be used to actually circumvent the 
requirement of the law.
    And, Mr. Walsh, before Ms.--without prejudice to Ms. 
Porter's time, could you just address that because that remains 
a concern of this subcommittee. The law must be complied with, 
and the law says consolidation, not optimization.
    Mr. Walsh. Absolutely, sir. And I think my fellow witnesses 
here might be able to serve very well in terms of what the 
current state of their data centers are, how many they have 
left. But you are absolutely correct. The law says 
consolidation, and we still want to see agencies closing and 
consolidating those data centers. We don't want empty data 
centers.
    Mr. Connolly. Right. So, in response to Ms. Porter's 
question about what is this optimization initiative, that is 
what? In addition to the requirement of the law?
    Mr. Walsh. Sir, the law is the law.
    Mr. Connolly. Well, I know that.
    Mr. Walsh. Yes. So, OMB's data center optimization 
initiative, yes, it is in addition to FITARA.
    Mr. Connolly. OK. It's in addition to.
    Thank you, Ms. Porter. I wanted to clarify that.
    Ms. Porter. Absolutely. Thank you very much, Mr. Chair.
    So, in the past, the GAO has testified before this 
committee that data consolidation not only protects us from 
cyber-attacks, but it also decreases cost to taxpayers. In 
fact, Mr. Ahluwalia--I'm going to mess up his name--Ahluwalia. 
How did I do? Slow.
    Mr. Ahluwalia. Excellent, Congresswoman.
    Ms. Porter. In fact, Mr. Ahluwalia, how much has the 
Department of Labor realized in cost savings through closing 73 
data centers?
    Mr. Ahluwalia. Thank you, Congresswoman.
    I think this is one of the bright spots of our portfolio 
and how we have been able to realize savings. Over the last few 
years, we have been able to close down 73 of these data 
centers, and despite what the regulations are and the current 
initiative status is, we are tracking every tiered and 
nontiered data center. We have saved around 70-plus million 
dollars, to answer your question directly.
    Ms. Porter. Thank you. So, you were able to save over $70 
million and able to reduce office space, consolidate contracts 
and services, cut duplicative costs.
    Mr. Walsh, do you know how much agencies in total have 
saved because of the initiative?
    Mr. Walsh. I do not have the numbers at hand. It is in the 
order of billions of dollars.
    Ms. Porter. What I have is total of about $7.1 billion in 
savings, either cost savings or cost avoidance, for fiscal 
years 2012 through 2020. Clearly, this metric has prompted some 
pretty big savings for taxpayers.
    But, in June 2019, the day before the FITARA 8.0 hearing, 
the OMB issued guidance updating the data center initiative. 
They redefined and narrowed the definition of a data center in 
a way that, according to the GAO, eliminated the reporting of 
over 2,000 facilities governmentwide.
    So, Mr. Walsh, if we leave out more than 2,000 facilities, 
we're missing out the evaluation and potential, you know, 
improvement and cost savings of all of those facilities through 
this effort. Isn't that right?
    Mr. Walsh. That is correct.
    And to Mr. Ahluwalia's point earlier, he mentioned that 
they are tracking not only the tiered but also the nontiered 
data centers. Tracking the nontiered data centers, those are 
the ones that fell off. That's the 2,000 that you mentioned 
there. So, it's, in a sense, the----
    Ms. Porter. And those are those smaller ones that weren't 
necessarily intended to be data centers, those nontiered ones. 
This could open us up to cyber-attacks, couldn't it?
    Mr. Walsh. That is correct. And we have encouraged the OMB 
and the agencies to continue their tracking of these nontiered 
data centers.
    Ms. Porter. That's potentially wasting taxpayer dollars, 
because we're not evaluating these nontiered data centers for 
potential consolidation or optimization?
    Mr. Walsh. That is correct. And to help put a face to the 
name, some of these smaller data centers include things like 
FAA's air traffic control centers or large medical machinery 
that has basically supercomputers built into it.
    Ms. Porter. I'm pretty concerned about those things, FAA 
data and medical data.
    Thank you very much, Mr. Walsh.
    At every hearing since OMB issued this rule, members of 
this subcommittee have brought up the data center definition 
issue. It seems from these hearings that OMB thinks it's 
following appropriate private-sector best practices. And GAO 
thinks that we're exposing cyber insecurities.
    Has GAO been working with OMB to ensure Federal agencies 
are not turning a blind eye to potential cybersecurity risks or 
wasting tax dollars?
    Mr. Walsh. So, we do correspond very closely with OMB. We 
work with them as best as able. So, we try. And we do have 
annual reporting requirements----
    Ms. Porter. Mr. Walsh, are they listening to you, or are 
they ignoring you?
    Mr. Walsh. I would say it's a push-pull. We work as 
collaboratively as we can, but sometimes it does feel like it's 
more of us talking and them not listening.
    Ms. Porter. But I get the sense, Mr. Walsh, that you're 
doing the pushing and the pulling, and they're doing the 
resisting. Is that an incorrect takeaway?
    Mr. Walsh. So, there are times that we have worked very 
collaboratively, and I do not want to disrespect OMB or the 
good work they do. But, on certain issues, we don't always see 
eye to eye, so I think you're correct.
    Ms. Porter. Are they currently--with the GAO in its 
professional opinion--again, respecting the mission of OMB and 
the work that they do, is OMB in compliance with FITARA?
    Mr. Walsh. So, I hesitate to come out with an official GAO 
opinion on this just because, right now, with the 
administration change, we have not yet seen how they are going 
to treat this issue.
    Ms. Porter. OK. Well, I look forward to finding out what 
you find in the post-administration change.
    So, I think we're really right that we need to consider 
potential solutions, not just letting you do the investigation 
under the new OMB management, but I also support a potential 
legislative fix if OMB continues to not follow through. If 
they're not following the statute or they're defying 
congressional intent, then I think we need to consider 
legislation or even enforcement action.
    Thank you very much for sharing your expertise with the 
committee today.
    I yield back.
    Mr. Connolly. Thank you, Ms. Porter. And I love your spirit 
because I feel the same way.
    You don't get to come into compliance with FITARA by 
redefining what a data center is, and you don't get to come 
into compliance by actually substituting a word in the law with 
another one that suits your purposes better and gets you off 
the hook.
    And we are going to insist on compliance with the law. And, 
if we have to--as Ms. Porter suggests, if we have to further 
refine legislative language to make it very clear and, 
unfortunately, more restrictive, we will.
    And we certainly will back up your efforts, Mr. Walsh, and 
those of your colleagues to insist on compliance. Let there be 
no doubt about that.
    We are joined by the distinguished ranking member of the 
full committee, Mr. Comer. Mr. Comer, welcome. You're 
recognized for five minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    I have a couple of questions for Mr. Mahanand and Mr. 
Ahluwalia. I mispronounced that. But since most people now 
experience government through digital interactions, an agency's 
IT system is critical in building citizens' trust in their 
government, obviously.
    How does your agency measure the digital experience that 
you are designing in your IT systems?
    Mr. Ahluwalia. So, I can go first, Congressman. Thank you 
for the question.
    At Labor, the service that we provide to the constituents 
that we serve is extremely important for us. So, the--one of 
the discussions earlier was around IDEA Act and compliance with 
it. We have taken that--the implementation of that act very, 
very seriously.
    We developed a one-web initiative, where we have instituted 
the responsive design parameters that the private sector uses, 
and also made all our websites mobile friendly and accessible 
for the general public. The mobility as well as the user-
centric design of these are in compliance with the IDEA Act and 
at par with the private sector at this point in time.
    I will say, with every new project we come up with, we 
measure the ease with which customers or consumers or employers 
across the Nation are able to consume our services. So, are we 
shortening the amount of time taken for the business process to 
yield the results of mission outcomes? And those sort of 
success measures are in each and every one of our projects.
    Mr. Mahanand. So, this is Jay Mahanand from USAID.
    So, like Mr. Ahluwalia, we also follow the IDEA's act, but 
we take it kind of, you know, a step forward. When I say we are 
100 percent cloud enabled, we consider that as kind of the 
digital implementation of things that we do for the agency.
    The ability for our staff overseas and locally to be able 
to get any of the services that they need should be--should be, 
you know, accessible to no matter where you are, and so we take 
that in terms of the insight in terms of our strategy and 
develop that--develop basically our architecture around that.
    So it is, you know, something that we take very seriously 
given the fact that where we work in. We also have to look at 
our challenges of low-bandwidth, you know, areas in different 
parts of the world.
    And so, when we look at digital technology, we also look 
at, you know, cloud services to be associated with that 
because, really, that's where the--you know, the rubber meets 
the road specifically when it comes to the digitization of, you 
know, services.
    You know, we take something like digital forms, right? And 
so we've looked at DocuSign. And, you know, the ability for us 
to not necessarily be in the office to do that is something 
that, you know--that we would try to roll out for everything 
that we do.
    So, it's just looking at what--you know, looking at the 
service themselves and seeing what we can actually digitize, or 
move it--again, move it to the cloud, where it is more 
accessible and then put the security around that.
    Mr. Comer. So, what actions do you all take based on 
feedback from citizens and employees who use your agency's 
online tools?
    Mr. Mahanand. So, although it is--so, from--our primary 
interaction with users is--and the public is really through our 
main website, usaid.gov, and there is a feedback loop from that 
website into the agency, and there is a team of folks that 
actually look at suggestions that comes in. And, if it's 
something that's viable, again, we act on it. But, if it is 
something that--you know, we modernize the site just to make 
sure that we are able to be everything in the IDEA's act, 
right, in terms of all five of those categories.
    Mr. Ahluwalia. We have a similar loop, Congressman. We take 
these things very seriously. And I'll give you an example. It 
was in my testimony earlier as well, the apprenticeship.gov 
website that we created.
    We went to Job Corps centers. We went to jobs work centers, 
employment agencies across various states to figure out what is 
needed. We did a user-centric design study, and we continued 
that kind of a feedback loop to remain at par with the 
experiences these folks are getting with the private sector 
tools.
    Mr. Comer. OK. Thank you, Mr. Chairman.
    I yield back.
    Mr. Connolly. I thank the distinguished ranking member.
    In closing, I want to reiterate some of the things we've 
heard here today.
    We want to make sure there is full compliance with what's 
in the law, and nobody gets to sort of redefine that 
unilaterally.
    Second, we do remain flexible with respect to the 
Scorecard, and we will be, as Mr. Hice suggested, remaining 
flexible and looking at categories to make sure we're capturing 
performance as accurately as we can.
    And of course GAO has always been our partner in that 
regard, and we thank you, Mr. Walsh, and your colleagues for 
that continuing partnership.
    And we hope that this kind of hearing--oversight hearing 
reinforces your ability to communicate with counterparts in 
respective Federal agencies that Congress means it. I can't 
think of another example on Capitol Hill for a single piece of 
existing legislation that has already had 11, going on 12, 
oversight hearings over five or six years on a very bipartisan 
basis, you know, to reinforce compliance and implementation. 
And so I hope that strengthens your hand as well.
    And, you know, our goal is to try to make the Federal 
Government more efficient, to save money along the way. And we 
have saved a fair amount of money.
    We want to followup on Mr. Biggs' question with you about 
supply chain vulnerability because I think--I think that might 
be the key to helping us better understand what happened and 
the how and why. The soft underbelly is the supply chain, and I 
think that's a pretty key takeaway from your testimony today, 
Mr. Walsh.
    And, finally, I would ask--and, if you need a formal 
request, I think we'd do it, but I think all of us, on a 
bipartisan basis, would like to know, how did IT play a role in 
relief efforts--Federal relief efforts, and, for that matter, 
even state relief efforts related to Federal policy guidance in 
this pandemic?
    You know, we look at the Small Business Administration and 
its E-Tran system, for example, that got overwhelmed. We look 
at the IRS, which had 60 different IT systems, some of which 
work well, some of which didn't. And, you know, it had to both 
remain the tax collector, audit entity, while also becoming a 
benefit delivery entity. And that transition really challenged 
IRS in terms of its IT systems.
    And then we also, of course, want to followup on legacy IT 
and the TMF and how we can best use that to leverage more--the 
acceleration of the retirement of legacy systems so that we're 
more cyber secure and we're saving taxpayers' money.
    So, those are some things, I think, from today's hearing.
    I want to thank my partner, Mr. Hice, and Mr. Comer for 
your presence here today as well.
    One of the hallmarks of this--you know, we don't agree on a 
lot of things, but, when it comes to IT modernization, we've 
had bipartisan harmony coming out of this subcommittee. And, in 
fact, I'm very proud of the fact that the very first bill 
passed in the House in this Congress, on January 5, was a bill 
coming out of this subcommittee on a bipartisan basis, the 
FedRAMP bill, to codify the certification of private entities 
wanting to provide cloud services to the Federal Government.
    And I thought that was a pretty strong statement about 
recognizing and elevating the importance and role of IT, which 
GAO first brought to everyone's attention in its high-risk 
report. So, we're continuing to try to take it seriously and 
push the system to betterment.
    I thank my colleagues. This hearing is adjourned.
    [Whereupon, at 10:27 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
